No. 19-349
INTHE

~upreme <!Court of tbe fflniteb ~tate~
SWISHER INTERNATIONAL, INC.,

v.

Petitioner,

TRENDSETTAH USA, INC. AND TREND SETTAH, INC.,

Respondents.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court
and that on this day, pursuant to Rule 29 of the Rules of this Court, I caused three
copies of the Brief in Opposition to be served upon the below-named counsel by thirdparty commercial carrier for delivery within three calendar days and caused an
electronic copy to be served upon the below-named counsel by e-mail. All parties
required to be served have been served.

Counsel for Petitioner:
Daniel G. Swanson

GIBSON, DUNN & CRUTCHER LLP

333 South Grand Avenue
Los Angeles, CA 90071
(213) 229-7000
dswanson@gibsondunn.com

